No. __-_______

IN THE

Supreme Court of the United States
RODOLFO SEGURA-VIRGEN,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit

PETITION FOR WRIT OF CERTIORARI

GEREMY C. KAMENS
Federal Public Defender

Joseph S. Camden
Counsel of Record
Assistant Federal Public Defender
Office of the Federal Public Defender
for the Eastern District of Virginia
701 East Broad Street
Suite 3600
Richmond, VA 23219
(804) 565-0830
Joseph_Camden@fd.org
October 14, 2020

QUESTIONS PRESENTED
I.

Four terms ago, in Esquivel-Quintana v. Sessions, 137 S.Ct. 1562 (2017), this
Court held that a conviction under California Penal Code § 261.5(c) is not an
aggravated felony, and that the statute defining aggravated felonies was
unambiguous in that regard. In 2001, Mr. Segura-Virgen was deported on the
sole ground that his conviction under California Penal Code § 261.5(c) was an
aggravated felony. He was not provided an opportunity to contest this legal
question in removal proceedings. The resulting removal order was used to
convict Mr. Segura-Virgen in 2019 of illegal reentry after deportation. The
courts below affirmed the use of this removal order against Mr. Segura because,
they held, they were required to ignore Esquivel-Quintana and defer to the
immigration officer’s underlying determination that the conviction was an
aggravated felony. The First, Fourth, Seventh, and (sometimes) Ninth Circuits
follow this approach. The Second, Fifth, Tenth and (sometimes) Ninth Circuits,
on the other hand, look to the law as it currently stands.

This petition therefore first presents the question whether courts evaluating a
a prior removal order in the context of a criminal prosecution for illegal reentry
are required to apply the law as it is now understood, or instead are required to
defer to individual immigration officers’ prior erroneous determinations.

-i-

II.

In United States v. Mendoza-Lopez, 481 U.S. 828, 840 (1987), this Court held
that the Fifth Amendment prevents the government from using a deportation
order to satisfy an element of a crime if the alien defendant’s right to judicial
review had been “effectively eliminated” by defects in the proceeding. It held
that any waiver of appeal of the deportation order must be “considered and
intelligent.” Over the intervening 33 years, the lower courts have reached an
impassible disagreement on what advice is required to make a pro se alien’s
waiver of appeal “considered and intelligent.” The Second and Ninth Circuits
(accounting for about a quarter of all illegal reentry prosecutions) require that
the alien be made aware of the right to dispute any dispositive issue. The First,
Fourth, Fifth, Seventh, and Tenth Circuits do not require any advice be
provided.

This case therefore asks, second, whether a pro se alien’s waiver of the right to
appeal is “considered and intelligent” under Mendoza-Lopez in the absence of an
opportunity to dispute whether his prior conviction is an aggravated felony.

-ii-

PARTIES TO THE PROCEEDINGS
All parties appear in the caption of the case on the cover page.

RELATED CASES
(1)

United States v. Segura-Virgen, No. 19-4659, United States Court of Appeals for
the Fourth Circuit. Judgment entered April 2, 2020; Petition for Rehearing
Denied May 19, 2020.

(2)

United States v. Segura-Virgen, No. 3:18-CR-149, United States District Court
for the Eastern District of Virginia. Judgment entered September 4, 2019.

-iii-

TABLE OF CONTENTS
Questions Presented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Parties to the Proceedings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
Related Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
Table of Contents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
Table of Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vi
Opinions Below . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Jurisdiction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Constitutional and Statutory Provisions Involved . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Statement of the Case . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Proceedings in the District Court . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Proceedings in the Court of Appeals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Reasons for Granting the Petition . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
I.

The Courts of Appeals Disagree About Whether to Apply the Law at the Time
of the Removal Hearing or the Law As Currently Understood to Evaluate
Challenges to Prior Removal Orders in Illegal Reentry Prosecutions. . . . . . 8

II.

The Courts of Appeals Disagree About Whether a Pro Se Alien Must be Provided
a Meaningful Opportunity to Contest the Charges or Apply for Relief in Order
to Make a Considered and Intelligent Decision on Whether to Appeal . . . . 13

III.

The Issues Presented Are Important Questions Because They Concern a
Constitutional Defense to One of the Most Common Federal Felonies Involving
a Fluid Area of Law . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

IV.

The Fourth Circuit’s Decision Was Wrong. . . . . . . . . . . . . . . . . . . . . . . . . . . 23

V.

This Case is an Ideal Vehicle for Resolving the Questions Presented . . . . . 29

Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
-iv-

APPENDIX
Decision of the court of appeals
United States v. Segura-Virgen, 799 F. App’x. 214 (4th Cir. 2020) . . . . . . . 1a
District court’s memorandum opinion
United States v. Segura-Virgen, 390 F. Supp. 3d 681 (E.D. Va. 2019) . . . . . 2a
Department of Homeland Security Form I-851, Notice of Intent to Issue a
Final Administrative Removal Order . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22a

-v-

TABLE OF AUTHORITIES
Cases
Brady v. United States, 397 U.S. 742, 757 (1970) . . . . . . . . . . . . . . . . . . . 27,28
Carachuri-Rosendo v. Holder, 560 U.S. 563 (2010) . . . . . . . . . . . . . . . . . 22,23
Chevron, U.S.A., Inc. v. Natural Resources Defense Council, Inc.,
467 U.S. 1227 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24-25
Descamps v. United States, 133 S.Ct. 2276 (2013) . . . . . . . . . . . . . . . . . . . . 21
Etienne v. Lynch, 813 F.3d 135 (4th Cir. 2015) . . . . . . . . . . . . . . . . . . . 5,19,29
Esquivel-Quintana v. Sessions, 137 S.Ct. 1562 (2017) . . . . . . . . i,4,6,23,25,29
INS v. St. Cyr, 533 U.S. 289 (2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10,23
Henderson v. United States, 568 U.S. 266 (2013)

. . . . . . . . . . . . . . . . . . 25-26

Leocal v. Ashcroft, 543 U.S. 1 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . 9,22,23
Lopez v. Gonzales, 549 U.S. 47 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22,23
Mathis v. United States, 136 S. Ct. 2243 (2016) . . . . . . . . . . . . . . . . . . . . 22,23
Mellouli v. Lynch, 575 U.S. 798 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . 21,22
Moncrieffe v. Holder, 569 U.S. 184 (2013) . . . . . . . . . . . . . . . . . . . . . . . . . 22,23
Plumley v. Austin, 135 S. Ct. 828, 831 (2015) . . . . . . . . . . . . . . . . . . . . . . . 31
Rivers v. Roadway Exp., Inc., 511 U.S. 298 (1994) . . . . . . . . . . . . . . 9,12,23-24
Sessions v. Dimaya, 138 S. Ct. 1204, 1211 (2018) . . . . . . . . . . . . . . . . . . . . . 21
Sicurella v. United States, 348 U.S. 385 (1955) . . . . . . . . . . . . . . . . . . . . . . 26
Skidmore v. Swift & Co., 323 U.S. 134 (1944) . . . . . . . . . . . . . . . . . . . . . . . 25
United States v. Aguilera-Rios, 769 F.3d 626 (9th Cir. 2014) . . . . . . . . . . . 13
United States v. Aguirre-Tello, 181 F. Supp. 2d 1298 (D. N.M. 2002) . . . . . 15
-vi-

United States v. Aguirre-Tello, 324 F.3d 1181 (10th Cir. 2003) . . . . . . . . . . 15
United States v. Aguirre-Tello, 353 F.3d 1199
(10th Cir. 2004) (en banc) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14,15,16
United States v. Baptist, 759 F.3d 690 (7th Cir. 2014) . . . . . . . . . . . . . . . 10,11
United States v. Cordova-Soto, 804 F.3d 714 (5th Cir. 2015) . . . . . . . . . . 14,15
United States v. Copeland, 376 F.3d 61 (2d Cir. 2004) . . . . . . . . . . . . . . . . . . 9
United States v. Gary, 954 F.3d 194 (4th Cir. 2020) . . . . . . . . . . . . . . . . . . . . 7
United States v. Gonzalez-Ferretiz, F. App’x. 837 (4th Cir. 2020) . . . . . . . . 31
United States v. Leon-Paz, 340 F.3d 1003 (9th Cir. 2004) . . . . . . . . . . . . . . 12
United States v. Lopez, 445 F.3d 90, 100 (2d Cir. 2006) . . . . . . . . . . . . . . . . 16
United States v. Lopez-Collazo, 824 F.3d 453 (4th Cir. 2016) . . . . . . . passim
United States v. Lopez-Ortiz, 313 F.3d 225 (5th Cir. 2002) . . . . . . . . . . . . 9,10
United States v. Mendoza-Lopez, 481 U.S. 828 (1987) . . . . . . . . . . . . . passim
United States v. Muro-Inclan, 249 F.3d 1180 (9th Cir. 2001) . . . . . . . . . . . 14
United States v. Rivera-Nevarez, 418 F.3d 1104 (10th Cir. 2005) . . . . 9,14,16
United States v. Rodriguez, 420 F.3d 831 (8th Cir. 2005) . . . . . . . . . . . . 14,16
United States v. Roque-Espinoza, 338 F.3d 724 (7th Cir. 2003) . . . . . . . . . . 14
United States v. Segura-Virgen, 390 F. Supp. 3d 681 (E.D.Va. 2019) . . . . . 20
United States v. Segura-Virgen, 799 F. App’x. 214 (4th Cir. 2020) . . . . . . . 20
United States v. Soto-Mateo, 799 F.3d 117 (1st Cir. 2015) . . . . . . . . 10,11,14
United States v. Valdivia-Flores, 876 F.3d 1201 (9th Cir. 2017) . . 16-19,28,30
United States v. Vidal-Mendoza, 705 F.3d 1012 (9th Cir. 2013) . . . . . . . . . 12

-vii-

Valdiviez-Hernandez v. Holder, 739 F.3d 184 (5th Cir. 2013) . . . . . . . . . . . 30
Victoria-Faustino v. Sessions, 865 F.3d 869, 873 (7th Cir. 2017) . . . . . . . . 30
Constitutional Provision, Statutes, Regulations, and Rules
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
8 U.S.C. § 1101 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
8 U.S.C. § 1158 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
8 U.S.C. § 1228 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
8 U.S.C. § 1229b . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
8 U.S.C. § 1229c . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
8 U.S.C. § 1326 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
8 C.F.R. § 1238.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
California Penal Code § 261.5(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-4,6,25
S.Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
4th Cir. Local R. 36 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Other Sources
United States Sentencing Commission, 2019 Annual Report and Sourcebook
of Federal Sentencing Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

-viii-

PETITION FOR WRIT OF CERTIORARI
Rodolfo Segura-Virgen respectfully petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for the Fourth Circuit.
OPINIONS BELOW
The opinion of the United States Court of Appeals appears at page 1a of the
appendix to the petition and is also available at 799 F. App’x. 214 (4th Cir. 2020). The
district court’s memorandum opinion appears at pages 2a to 20a of the appendix, and
is also available at 390 F. Supp. 3d 681 (E.D. Va. 2019).
JURISDICTION
The district court in the Eastern District of Virginia had jurisdiction under 18
U.S.C. § 3231. The Fourth Circuit had jurisdiction under 28 U.S.C. § 1291. That court
issued its opinion and judgment on April 2, 2020, and denied a timely filed petition for
rehearing on May 19, 2020. This Court’s order of March 19, 2020, extended the
deadline for filing a petition for certiorari to 150 days after the date of the lower court’s
judgment or denial of a timely petition for rehearing. This Court has jurisdiction
under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fifth Amendment of the United States Constitution provides:
No person shall . . . be deprived of life, liberty, or property,
without due process of law[.]

-1-

Title 8, U.S. Code § 1326(d) provides:
(d)

Limitation on collateral attack on underlying
deportation order In a criminal proceeding under
this section, an alien may not challenge the validity
of the deportation order described in subsection (a)(1)
or subsection (b) unless the alien demonstrates
that—
(1)
(2)
(3)

the alien exhausted any administrative
remedies that may have been available to seek
relief against the order;
the deportation proceedings at which the order
was issued improperly deprived the alien of
the opportunity for judicial review; and
the entry of the order was fundamentally
unfair.
STATEMENT OF THE CASE

Introduction
Rodolfo Segura-Virgen was brought to the United States from Mexico at age
nine. App. 7a. Three years later, his mother filed a petition to adjust his status, which
was never adjudicated. App. 7a. He grew up and attended school in the United States,
and speaks English fluently. App. 18a. At age 19, Mr. Segura was convicted of a
violation of California Penal Code § 261.5(c). App. 7a. In 2001, he was taken into ICE
custody and served a Form I-851, Notice of Intent to Issue a Final Administrative
Removal Order (“NOI”), which he acknowledged having received. App. 8a. This form
is used in administrative removal proceedings under 8 U.S.C. § 1228(b). See 8 C.F.R.
§ 1238.1(b)(1). In administrative removal proceedings, there is no formal hearing;
immigration officers may themselves order the removal of an alien, but only on the
ground of an aggravated felony conviction. See 8 U.S.C. § 1228(b); 8 C.F.R. § 1238.1.

-2-

The NOI alleged that Mr. Segura was deportable on the ground that his conviction for
Cal. Penal Code § 261.5(c) was an aggravated felony as sexual abuse of a minor under
8 U.S.C. § 1101(a)(43)(A). App. 8a; 21a.
The reverse side of the NOI provides the alien with a checkbox to apply for
Withholding of Removal, and four checkboxes for contesting deportability:

App. 22a. There is no checkbox available to admit the fact of conviction, but contest
the legal conclusion that it constitutes an aggravated felony.
Instead, Mr. Segura had checked and signed the portion of the form below this,
stating that he did not contest deportability and waived the right to remain in the
United States for 14 days to file a petition for review in the Court of Appeals. App. 3a.
An immigration officer signed the removal order based on this concession and he was
removed to Mexico on foot the next day. App. 9a. Mr. Segura was found in California
in 2003 and removed by reinstating the 2001 order. App. 10a. He was subsequently
found in the United States in 2018 and charged in Eastern District of Virginia with
being a deported alien found in the United States under 8 U.S.C. § 1326. App. 10a.

-3-

Proceedings in the District Court
Mr. Segura filed a motion to dismiss the indictment, attacking his prior removal
order. App. 8a. At an evidentiary hearing, the ICE officer who drafted the NOI
testified.

When asked how he determined that Mr. Segura’s conviction was an

aggravated felony, he testified that officers had a list of state convictions that qualified.
C.A.J.A. 110.1 He did not know who prepared the list, but it “would have had to have
been [ICE’s] legal office.” Id. He testified that he did not compare the elements of the
aggravated felony definition and the elements of the California crime. C.A.J.A. 112.
He did not know how or where to get a copy of the list that was in effect at the time of
Mr. Segura’s removal. Id.
In support of the motion, Mr. Segura argued that his Cal. Penal Code § 261.5(c)
conviction was not an aggravated felony under Esquivel-Quintana v. Sessions, 137
S.Ct. 1562 (2017). App. 12a. The government, however, argued that even after
Esquivel-Quintana, § 261.5(c) convictions could still count as aggravated felonies. App.
12a. The district court agreed with Mr. Segura, and held that under EsquivelQuintana, a conviction for Cal. Penal Code § 261.5(c) does not qualify as an aggravated
felony. App. 12a.
Mr. Segura next argued that, because he was not deportable on the grounds
alleged in the NOI, immigration officers had no authority to order his removal, and the
order was ultra vires and a legal nullity. App. 12a. The district court rejected that

1

“C.A.J.A.” refers to the joint appendix filed in the court of appeals. See Joint
Appendix, United States v. Segura-Virgen, No. 19-4659, Doc. 16 (filed Dec. 23, 2019).
-4-

argument, holding that 8 U.S.C. § 1326(d) was the sole means of attacking a prior
removal order in a § 1326 prosecution. App. 12a-13a.
Mr. Segura also made an argument for dismissal under § 1326(d), App. 13a. He
argued his prior conviction was not an aggravated felony; but Form I-851, the NOI,
does not provide an option to contest the classification of his conviction. App. 13a.
Therefore, he reasoned, he was excused from exhausting any administrative remedies
and was deprived of the opportunity for judicial review under § 1326(d)(1) and (d)(2).
He pointed out that the Fourth Circuit had held in Etienne v. Lynch, 813 F.3d 135 (4th
Cir. 2015), that exhaustion was satisfied because Form I-851provided no opportunity
to challenge the classification of the conviction. App. 4a. Last, he argued that removal
of an alien who is not deportable as charged violates due process and is prejudicial,
making the entry of the order fundamentally unfair under § 1326(d)(3), and thus
satisfying the elements of a collateral attack. App. 15a.
The district court first agreed that Etienne governed, and held that Mr. Segura
had satisfied § 1326(d)(1), the exhaustion requirement, because “there was no available
administrative remedy” to challenge the classification of his conviction as an
aggravated felony. App. 14a.
But the district court gave two reasons for denying the motion. First, the
district court held that Mr. Segura was not deprived of the opportunity for judicial
review under § 1326(d)(2). It held that Mr. Segura’s waiver of appeal was valid,
despite the lack of opportunity on the forms to challenge whether his conviction was
an aggravated felony. App. 15a-16a. The district court reasoned that courts are not

-5-

required to “inform defendants of each aspect of their case that they may appeal.” App.
16a. Instead, knowledge in general of the right to appeal is all that the district court
required to find a considered and intelligent waiver.

App. 15-16a.

It found a

considered and intelligent waiver here becuase Mr. Segura read and understood the
part of Form I-851 advising of the right to appeal generally. Id.
Second, the district court held that the entry of the removal order was not
fundamentally unfair under § 1326(d)(3), because there was no due process violation.
App. 16a. The district court did acknowledge that Mr. Segura’s conviction under Cal.
Penal Code § 261.5(c) was not an aggravated felony under Esquivel-Quintana, and
therefore Mr. Segura was not deportable as charged. App. 12a. However, the Fourth
Circuit had held in United States v. Lopez-Collazo, 824 F.3d 453 (4th Cir. 2016) that
an alien cannot show a due process violation from an error of law unless it was “a
misapplication of the law as it existed at the time – not as understood in light of
subsequent judicial decisions[.]” App. 17a (quoting Lopez-Collazo, 824 F.3d at 467)
(emphasis in district court opinion). It surveyed cases at the time in the Ninth Circuit
(where the removal proceedings occurred), which were inconclusive.

App. 18a.

However, because the immigration officer testified that he referred to a list of
California statutes prepared by ICE, and there was “no authority at the time holding
otherwise[,]” the officer “did not misapply the law.” App. 18a; 24a-27a (testimony of
ICE officer on process for determining whether a conviction is an aggravated felony).
Mr. Segura pled guilty with a conditional plea agreement, preserving his right to
appeal the denial of the motion.

-6-

Proceedings in the Court of Appeals
Mr. Segura renewed his argument in the Fourth Circuit, which issued a oneparagraph per curiam opinion adopting the reasoning of the district court. App. 2a.
Mr. Segura then filed a petition for panel rehearing in light of United States v. Gary,
954 F.3d 194 (4th Cir. 2020) (Petition for Writ of Certiorari filed Oct. 5, 2020, No. 20444), arguing that it supported his contentions that a mistake of law could render a
waiver involuntary in light of after-decided precedent. See United States v. SeguraVirgen, No. 19-4659 (4th Cir.), Doc. 34. The Fourth Circuit denied the petition. Id.,
Doc. 36 (May 19, 2020).
REASONS FOR GRANTING THE PETITION
The decision below rested on two conclusions, both of which are the subject of
decades of disagreement in the Courts of Appeals. And both are important because
they concern the core standards for evaluating the most common defense to the
most frequently charged federal felony.
First, the Courts of Appeal disagree about what law to apply to evaluate the
validity of a prior removal order under 8 U.S.C. § 1326(d). The First, Fourth, and
Seventh Circuits examine the law as it existed at the time of the removal hearing.
The First and Fourth Circuits have gone the furthest along this road, and defer to
immigration officers’ incorrect and unreasonable determinations so long as they
were not foreclosed by binding precedent at the time. On the other side, the Second,
Fifth, and Tenth Circuits apply the law as currently understood. The Ninth Circuit
follows a split rule, applying current precedent to whether the alien was deportable

-7-

or eligible for INA § 212(c) relief, and the law at the time of the removal to
questions of eligibility for other kinds of relief.
Second, sharp disagreements both between and within the Courts of Appeals
persist on what is required to show that an alien has made a “considered and
intelligent” waiver of the right to appeal. The Second and Ninth Circuits, joined by
dissenting judges in the Eighth and Tenth Circuits, hold that an alien must be
informed of, and provided an opportunity to challenge, any dispositive issue in order
for an appellate waiver to be considered and intelligent. But the First, Seventh,
Eighth, and Tenth Circuits, and now the Fourth, have held that an appellate waiver
is still considered and intelligent even without such advice or opportunity.
This Court’s intervention is needed to resolve these splits and establish a
uniform rule on these important issues. The illegal reentry statute is the most
frequently charged federal felony, and a collateral attack on the prior removal order
is the most frequently asserted defense. This Court has not revisited this area of
law since establishing the Fifth Amendment right to challenge the use of the
removal order in United States v. Mendoza-Lopez, 481 U.S. 828 (1987), 33 years ago.
The split in authority that has developed in the meantime is well-developed,
longstanding, and intractable.
I.

The Courts of Appeals Disagree About Whether to Apply the Law at
the Time of the Removal Hearing or the Law As Currently
Understood to Evaluate Challenges to Prior Removal Orders in
Illegal Reentry Prosecutions
This Court first recognized a due process right to challenge the use of a prior

removal order as an element of the crime of illegal reentry in United States v.
-8-

Mendoza-Lopez, 481 U.S. 828 (1987). Courts deciding such motions are often
confronted with a situation where the interpretation of the statutes governing
deportability or eligibility for relief from removal have changed between the
removal hearing and the government’s later use of the order in a prosecution for
illegal reentry. They must decide whether to evaluate alleged errors under thenprevailing standards on the one hand, or in light of precedent only decided after the
removal proceedings, on the other. The approaches of various courts conflict and
cannot be reconciled. This Court’s resolution is required.
A.

Courts Applying the Current Understanding of the Law

The Second, Fifth, and Tenth Circuits, echoed by a dissenting judge in the
Fourth Circuit, apply the law as currently understood. See United States v.
Copeland, 376 F.3d 61, 70-73 (2d Cir. 2004); United States v. Lopez-Ortiz, 313 F.3d
225, 230 (5th Cir. 2002); United States v. Rivera-Nevarez, 418 F.3d 1104, 1107 (10th
Cir. 2005); United States v. Lopez-Collazo, 824 F.3d 453, 468 (4th Cir. 2016)
(Gregory, C.J. dissenting). The Fifth and Tenth Circuits and the dissent in the
Fourth Circuit base this approach on this Court’s admonition in Rivers v. Roadway
Exp., Inc., 511 U.S. 298, 312-13 (1994) that “[a] judicial construction of a statute is
an authoritative statement of what the statute meant before as well as after the
decision of the case giving rise to that construction.”
United States v. Rivera-Nevarez, 418 F.3d 1104, 1107 (10th Cir. 2005)
involved an alien who was barred from relief because his DUI was considered an
aggravated felony. After his removal, this Court held in Leocal v. Ashcroft, 543 U.S.

-9-

1 (2004) that the aggravated felony statute did not cover DUIs. Under Rivers,
Leocal was “retroactively applicable to the time of Rivera-Nevarez's removal
hearing.” Id. In United States v. Lopez-Ortiz, 313 F.3d 225, 230 (5th Cir. 2002),
and alien was barred for relief under ("Therefore, [INS v.] St. Cyr[, 533 U.S. 289
(2001)] established Lopez-Ortiz's eligibility for § 212(c) relief at the time of his
removal, and the Immigration Judge's contrary understanding, although in
compliance with BIA precedent, was an erroneous application of the law. This error
informs our evaluation of the fundamental fairness of the removal hearing.").
B.

Courts Applying the Understanding of Law at the Time of
Removal Proceedings

The First, Fourth, and Seventh Circuits all hold that courts should examine
and apply the interpretation of the law as it existed at the time of the removal
proceeding. See United States v. Soto-Mateo, 799 F.3d 117, 123 (1st Cir. 2015);
United States v. Lopez-Collazo, 824 F.3d 453 (4th Cir. 2016); United States v.
Baptist, 759 F.3d 690, 697-98 (7th Cir. 2014).
The reasoning in the Seventh Circuit is perfunctory, but its holding is clear.
In Baptist, the defendant, charged with illegal reentry, had been a lawful
permanent resident from Belize. 759 F.3d at 692. He was convicted three times of
simple possession of a controlled substance. Id. He was charged with removability
for having a drug trafficking aggravated felony, and for violation of a law relating to
a controlled substance. Id. at 693. He stipulated to a removal order and was
expelled. Id. The Seventh Circuit acknowledged that under Lopez v. Gonzales, 549
U.S. 47, 56-57 (2006), decided after Baptist’s removal order, his convictions were not
-10-

actually aggravated felonies. Id. at 697. However, because simple possession of
drugs did qualify as an aggravated felony “under the law in effect at the time of his
removal,” there was no error because “the law in effect at the time of Baptist’s
challenged removal is what matters[.]” Id. at 697-98.
The First Circuit and Fourth Circuits go further, and extend deference to
erroneous agency decisions that were not forbidden by binding precedent at the
time. See United States v. Soto-Mateo, 799 F.3d 117, 123 (1st Cir. 2015) (“Since the
law governing the classification of aggravated identity theft was unsettled at the
time of the appellant's removal, we cannot fairly conclude that the appellant was
misled at all.”); Lopez-Collazo, 824 F.3d at 467 (error of law not a due process
violation unless it was “a misapplication of the law as it existed at the time – not as
understood in light of subsequent judicial decisions[.]”); App. 17a (same).
In Lopez-Collazo, the published case governing the outcome below, see App.
17a, the alien defendant had been convicted of second degree assault in Maryland,
with all but 72 days suspended. 824 F.3d at 456. He was served with an NOI
written in English, which was never translated to him in a language he could
understand. Id. at 461-62. He was ordered removed on the ground that his assault
conviction was an aggravated felony. Id. at 457-58. The Fourth Circuit
acknowledged that the defendant had never received notice of the charges that he
could understand, and that his conviction for second degree assault was not an
aggravated felony, meaning he was not deportable as charged. Id. at 462, 466-67.
It still reversed the district court’s decision to grant the motion to dismiss because,

-11-

it held, the government would have continued to misapply the aggravated felony
statute to him at the time of removal, and therefore he could not show prejudice.
See id. at 467.
Chief Judge Gregory dissented. He noted that it was never the law, properly
understood, that Maryland second degree assault is an aggravated felony, invoking
this Court’s admonition in Rivers that judicial interpretations are “an authoritative
statement of what the statute meant before as well as after the decision of the case
giving rise to that construction.” Id. at 468.
C.

The Ninth Circuit’s Split Approach

The Ninth Circuit applies different sets of law for different questions in
challenges to removal orders under § 1326(d). It first applies the law as currently
understood from post-removal precedent, in the case of an alien who was eligible for
INA § 212(c) relief, but erroneously advised to the contrary before this Court’s
opinion in St. Cyr. See United States v. Leon-Paz, 340 F.3d 1003,1100-01 (9th Cir.
2004). A later panel held, however, that the law at the time of the removal
proceeding governs questions of eligibility for relief from removal other than
§ 212(c). See United States v. Vidal-Mendoza, 705 F.3d 1012, 1017 (9th Cir. 2013).
It distinguished Leon-Paz on the ground that the retroactive availability of § 212(c)
relief at issue in Leon-Paz was not an issue on which the BIA was entitled to
deference. Id. at 1018 n.6. A subsequent panel then distinguished Vidal-Mendoza
and held that issues governing whether the alien was deportable as charged are
evaluated by the current understanding of the law, not the law at the time of

-12-

removal. United States v. Aguilera-Rios, 769 F.3d 626, 631-32 (9th Cir. 2014). So in
the Ninth Circuit, current law applies to eligibility for § 212(c) relief and
deportability; while eligibility for other forms of relief are governed by precedent in
effect at the time of the removal proceedings. Thus there is a split between the
circuits, and even within a circuit depending on the specific immigration relief at
issue. The disagreement in the courts below is deep and established, and this Court
is the only one who can end it.
II.

The Courts of Appeals Disagree About Whether a Pro Se Alien Must
be Provided a Meaningful Opportunity to Contest the Charges or
Apply for Relief in Order to Make a Considered and Intelligent
Decision on Whether to Appeal
In United States v. Mendoza-Lopez, 481 U.S. 828, 840 (1987), this Court held

that “a collateral challenge to the use of a deportation proceeding as an element of a
criminal offense must be permitted where the deportation proceeding effectively
eliminates the right of the alien to obtain judicial review.” The Court further held
that alien defendant is deprived of the opportunity for judicial review where a
purported waiver of the right to appeal is “not considered or intelligent[.]” Id. The
petitioners in Mendoza-Lopez purported to waive their rights to appeal on the
record, but this Court still held they were “deprived of their rights to appeal”
because “the only relief for which they would have been eligible was not adequately
explained to them[.]” Id. at 842.
The court below held that Mr. Segura was not deprived of the opportunity for
judicial review because he was advised of the right to appeal generally. App. 4a-5a.
The Courts of Appeals differ on what is required to satisfy the requirement of a
-13-

collateral attack that the alien have been deprived of the opportunity for judicial
review. The Second and Ninth Circuits hold that pro se aliens who waive appeal
without being advised of the right to contest dispositive issues are deprived of the
opportunity for judicial review. The First, Fourth, Fifth, Seventh, Eighth and
Tenth disagree, and require no advice.
A.

Circuits Holding That Incorrect or Incomplete Advisals Do Not
Render a Waiver Invalid
Despite this Court’s holding in Mendoza-Lopez, many courts have held that

lacking or erroneous advice by an immigration judge or official does not prevent the
government from using the removal order against the defendant, often over
vigorous dissent. United States v. Soto-Mateo, 799 F.3d 117, 123 (1st Cir. 2015);
United States v. Cordova-Soto, 804 F.3d 714, 722-24 (5th Cir. 2015); United States
v. Roque-Espinoza, 338 F.3d 724, 729 (7th Cir. 2003); United States v. Rodriguez,
420 F.3d 831, 834 (8th Cir. 2005); id. at 836 (Heaney, J. dissenting); United States
v. Aguirre-Tello, 353 F.3d 1199 (10th Cir. 2004) (en banc); id. at 1210 (Holloway and
Seymour, J.J., dissenting); United States v. Rivera-Nevarez, 418 F.3d 1104 (10th
Cir. 2005); id. at 1115-16 n.4 (Lucero, J. dissenting).
Most of these courts collapse the due process and deprivation-of-judicial
review requirements. They reason that an alien does not have a vested liberty
interest in relief from removal that is discretionary; and therefore the failure to
advise a person about the availability of relief is not a due process violation which
could have deprived them of the opportunity for administrative or judicial review.
See, e.g., United States v. Soto-Mateo, 799 F.3d 117, 123 (1st Cir. 2015); United
-14-

States v. Cordova-Soto, 804 F.3d 714, 724 (5th Cir. 2015) (holding stipulation
waiving right to contest removal hearing valid despite any misadvice about
aggravated felony status by immigration officer).
The saga of Mr. Aguirre-Tello in the Tenth Circuit illustrates the deep
divisions throughout the lower courts. In that case, the district court, relying on
Mendoza-Lopez, granted Mr. Aguirre-Tello’s motion to dismiss the indictment,
holding that the immigration judge’s failure to properly explain discretionary
INA § 212(c) relief prevented him from making a considered and intelligent waiver
of his right to appeal. United States v. Aguirre-Tello, 181 F. Supp. 2d 1298,1306-07
(D. N.M. 2002). On appeal, panel affirmed the dismissal over a dissent, agreeing
with the district court that the immigration judge’s “failure to inform [the
defendant] of the relief available to him and of the legal assistance available to him
to pursue that relief . . . deprived him of the judicial review.” United States v.
Aguirre-Tello, 324 F.3d 1181, 1198 (10th Cir. 2003). The dissenting judge would
have held, in part, that no advice on relief was required, and that it was sufficient
that the defendant had been told he was eligible for “some kind of relief[.]” Id. at
1197 (Anderson, J., dissenting). The Tenth Circuit, sitting en banc, reversed the
panel, holding that due process does not require any advice on eligibility for
discretionary relief; and that therefore, the defendant’s appellate waiver was valid
despite any deficiencies in the advice he received. Aguirre-Tello, 353 F.3d 1199,
1205 (10th Cir. 2004) (en banc); id. at 1210 n.9 (“The record shows that AguirreTello was informed of his right to appeal, and he knowingly and voluntarily waived

-15-

that right.”). Again, there was a dissent, arguing that pro se alien respondents are
entitled by due process to be informed of the nature of discretionary relief. Id. at
1210 (Holloway and Seymour, J.J., dissenting). This single case produced five
competing opinions at three stages of judicial review. So even within individual
Circuits, there is significant divergence of opinion.
B.

Circuits Holding That Incorrect or Incomplete Advisals Render
a Waiver Invalid

In the opposite camp are the Second and Ninth Circuits, along with
dissenting judges in the Eighth and Tenth Circuits, who hold that incorrect or
incomplete advisals by immigration officers can prevent an appellate waiver from
being considered and intelligent. See United States v. Lopez, 445 F.3d 90, 100 (2d
Cir. 2006); United States v. Muro-Inclan, 249 F.3d 1180, 1183 (9th Cir. 2001)
(waiver of appeal not considered and intelligent where immigration judge failed to
advise of eligibility for INA § 212(h) relief); United States v. Valdivia-Flores, 876
F.3d 1201, 1205-06 (9th Cir. 2017); United States v. Rivera-Nevarez, 418 F.3d 1104,
1115-16 n.4 (10th Cir. 2005) (Lucero, J. dissenting); United States v. Rodriguez, 420
F.3d 831, 836 (8th Cir. 2005) (Heaney, J. dissenting).
A thorough exploration of the deprivation-of-judicial-review requirement was
made by then-Judge Sotomayor in Lopez. In that case, the Second Circuit
addressed two arguments. The alien defendant first argued that the failure of the
immigration judge to inform him that he had a right to habeas review. 445 F.3d at
95. The court rejected that argument, holding that aliens have constructive notice
of the availability of habeas review. Id. at 95-96. However, the court held, the
-16-

proper inquiry for § 1326(d)(2) is whether the alien had a “realistic opportunity” to
avail himself of judicial review. Id. at 96. After surveying and analyzing circuit
precedent, the court held that “the IJ and BIA’s affirmative misstatements to Lopez
that he was not eligible for any relief from deportation functioned as a deterrent to
seeking relief” and deprived him of the opportunity for judicial review. Id. at 100.
The Ninth Circuit’s recent decision in Valdivia-Flores is a direct parallel to
this case, and reaches the opposite result. Both Mr. Valdivia-Flores and Mr. Segura
were placed in administrative removal proceedings under 8 U.S.C. § 1228(b); both
were provided the same form I-851, which alleged removability based on a
purported aggravated felony conviction. Neither was represented by counsel, and
neither received any advice beyond what appeared on the form. Neither petitioned
for review of the order at the time it was entered. Both argued in a later illegal
reentry prosecution that their prior convictions were not aggravated felonies,
rendering the removal order invalid and unavailable for an illegal reentry
prosecution.
The Ninth Circuit noted that the form “did not explicitly inform [Mr.
Valdivia-Flores] that he could refute, through either an administrative or judicial
procedure, the legal conclusion underlying his removability.” Id. at 1205-06. The
seemingly exclusive list of checkboxes providing other avenues to challenge the
removal “suggested just the opposite.” This meant his waiver of his right to seek
judicial review was “not considered and intelligent.” Id. at 1206.

-17-

The Fourth Circuit’s opinion in this case directly contradicts the Ninth
Circuit’s holding in Valdivia-Flores. Despite receiving identical advice, on the same
forms, the Fourth Circuit held that Mr. Segura’s waiver of his right to judicial
review was still considered and intelligent. As outlined above, the root of the
disagreement concerns the nature of advice a pro se alien must received before his
or her waiver is held to be “considered and intelligent.” Certiorari is therefore
indicated under S.Ct. R. 10(a).
III.

The Issues Presented Are Important Questions Because They
Concern a Constitutional Defense to One of the Most Common
Federal Felonies Involving a Fluid Area of Law
Certiorari is warranted not only due to the split in authority, but also the

importance of the issue. S.Ct. R. 10(c). First, illegal reentry under 8 U.S.C. § 1326
is one of the most commonly prosecuted federal felonies, and a challenge to the prior
removal order is the most commonly asserted defense. Uncertainty on the
standards governing these challenges place a high burden on district courts as well
as the courts of appeals. Second, whether aliens were eligible for relief or, as in Mr.
Segura’s case, deportable on the grounds charged, depends almost entirely on how
their convictions are characterized under the categorical approach. Courts’
interpretations of the categorical approach has changed drastically and frequently
over the last twenty years. This flux, in turn, leads to uncertainty in defendants
and district courts about how to treat removal orders predicated directly or
indirectly on erroneous characterizations of prior convictions.

-18-

A.

This Issue Concerns Core Standards for the Most Frequently
Asserted Defense to the Most Frequently Charged Federal
Felony

Illegal reentry is the most commonly prosecuted federal felony. According to
the U.S. Sentencing Commission, out of the 76,538 defendants sentenced in fiscal
year 2019, 22,077 were sentenced under the illegal reentry guideline, U.S.S.G §
2L1.2. That is 30.7% of all federal sentencings – more than all drug trafficking
cases combined, and more than three times more than all federal firearms cases.
United States Sentencing Commission, 2019 Annual Report and Sourcebook of
Federal Sentencing Statistics at 71, 128 (available at
https://www.ussc.gov/sites/default/files/pdf/research-and-publications/annual-report
s-and-sourcebooks/2019/2019-Annual-Report-and-Sourcebook.pdf).
The continued prosecution of illegal reentry offenses is unlikely to abate.
Although it varies, prosecution rates have not dipped below 15,000 per year since
before 2010, and reached peaks in 2011 and 2019. Sourcebook at 136.

-19-

Administrative Office of the Courts, U.S. District Caseload Explorer (available at
http://jnet.ao.dcn/resources/data-analysis/us-district-caseload-explorer) (accessed
Oct. 10, 2020).
The burden of litigation extends to the courts of appeals. According to the
Administrative Office of the Courts, almost 10% of federal criminal appeals, year
after year, are for immigration offenses generally. And a survey of the caselaw
makes clear that a collateral attack on a prior removal order under § 1326(d) is the
most commonly asserted defense to an illegal reentry charge. A circuit-level case
concerning § 1326(d) is issued on average about every 6 days over the last year (63
cases). Analyzing the various arguments invoking contradictory authority in such a
volume of cases is a heavy burden on district courts and appellate courts alike.
Distribution among Circuits is uneven, which makes the split of authority between
them more important. District courts in the Ninth and Fifth Circuits, for example,
account for 4,578 and 12,745 illegal reentry cases, respectively, in the 12 months
ending June 30, 2020, according to the Administrative Office of the U.S. Courts.
The questions presented are therefore important because they affect the most
commonly asserted defense to the most commonly charged federal felony. And the
geographical distribution of cases give an outsized effect to splits in authority
between the Circuit Courts. Mr. Valdivia-Flores in the Ninth Circuit avoids
conviction altogether while Mr. Segura in the Fourth Circuit, on the same material
facts and legal arguments receives a conviction and imprisonment. This Court has
not clarified or spoken in any way on this important defense to this common crime

-20-

since announcing it as a constitutional defense 33 years ago in Mendoza-Lopez.
Enough ink has been spilled in the lower courts to justify intervention, to provide
definitive answers to immigrant petitioners, defendants, the attorneys who advise
them, prosecutors, and district courts who must bear the burden of litigation in
these cases.
B.

Flux in the Categorical Approach

This case also provides the Court an opportunity to clarify how to treat
removal orders entered under erroneous understandings of the law – particularly
the categorical approach. The immigration consequences of most criminal
convictions is governed by the categorical approach. Having an aggravated felony
or a crime relating to a controlled substance, for example, can make even lawful
immigrants automatically deportable and ineligible for any form of discretionary
relief. See 8 U.S.C. §§ 1229b (cancellation); 1229c (voluntary departure); 1158
(asylum); see also, e.g., Sessions v. Dimaya, 138 S.Ct. 1204, 1211 (2018) (discussing
aggravated felony consequences); Mellouli v. Lynch, 575 U.S. 798 (2015) (concerning
removal of lawful permanent resident for drug paraphernalia).
The government has pushed hard over the last twenty years to expand the
reach of such statutes, arguing at points that crimes such as DUI, simple possession
of small amounts of drugs and paraphernalia should have the harshest
consequences. It has persuaded at times most of the lower courts, but this Court
has rejected most of its arguments in a long line of cases. See Descamps v. United
States, 133 S.Ct. 2276, 2287 (2013) (restricting universe of documents courts may

-21-

consult under categorical analysis); Mathis v. United States, 136 S.Ct. 2243, 2254
(2016); (same, again); Mellouli v. Lynch, 575 U.S. 798 (2015) (paraphernalia
conviction not crime relating to a controlled substance); Moncrieffe v. Holder, 569
U.S. 184, 206 (2013) (social sharing of marijuana not drug trafficking aggravated
felony); Carachuri-Rosendo v. Holder, 560 U.S. 563 (2010) (numerically second
simple possession drug conviction not an aggravated felony drug trafficking unless
so charged in court of conviction); Lopez v. Gonzales, 549 U.S. 47, 56-57 (2006)
(simple possession of controlled substance not an aggravated felony); Leocal v.
Ashcroft, 543 U.S. 1, 13 (2004) (“Drunk driving is a nationwide problem, as
evidenced by the efforts of legislatures to prohibit such conduct and impose
appropriate penalties. But this fact does not warrant our shoehorning it into
statutory sections where it does not fit.”).
But what is to be done with the thousands of immigrants deported under
prior erroneous precedent for minor convictions, and whose removal orders are used
against them to impose punishment when they, like Mr. Segura, attempt to return
to their families in the United States, albeit illegally?
The questions presented here are important to the resolution of that broader
issue, because they concern both the threshold issue of whether an alien must be
given a chance to contest the legal question in the first place in order for his waiver
to be deemed valid, and the later question of whether the government can resort to
criminal immigration enforcement when it has entered an order on an erroneous
basis. Here, the legal categorization of Mr. Segura’s conviction as an aggravated

-22-

felony was never presented to him as an issue he could contest, as the Fourth
Circuit acknowledged. Without such an opportunity, the judicial review of which he
was deprived could have resulted in the same review afforded other aliens who have
successfully challenged the categorization of their minor crimes as aggravated
felonies. And without being aware of that opportunity, his waiver was not
“considered and intelligent.”
IV.

The Fourth Circuit’s Decision Was Wrong
A.

The Law as Currently Understood Should Govern Motions to
Dismiss Under Mendoza-Lopez and § 1326(d).

The refusal of the Fourth Circuit and its sister circuits to apply this Court’s
precedent to motions to dismiss current prosecutions is wrong for three reasons.
First, it violates a legal principle a thousand years old and never previously
questioned. Second, it introduces serious separation of powers concerns. Third, it
creates a new form of extreme deference to an executive administrative agency.
And last, as this case illustrates, it is unworkable.
1. Courts that follow the Fourth Circuit’s approach characterize change in
governing precedent as a subsequent change in “the law,” and discuss “the law” at
the time of the removal order. This is common shorthand, but inaccurate in a
fundamental way, as this Court explained in Rivers. When this Court overrules a
Circuit Court on a matter of statutory interpretation as it did in Esquivel-Quintana,
Mathis, Descamps, Mellouli, Moncrieffe, Carachuri-Rosendo, Lopez, Leocal, St. Cyr
and other cases, it “held and therefore established that the prior decisions of the
Courts of Appeals . . . were incorrect.” Rivers, 511 U.S. at 312 (emphasis in
-23-

original). “[W]hen this Court construes a statute, it is explaining its understanding
of what the statute has meant continuously since the date when it became law.” Id.
at 312 n. 12. It is “not accurate to say that the Court’s decision[s in those cases]
‘changed’ the law[.]” Id. Rather, those opinions explained what the immigration
statutes “had always meant” and how “the Courts of Appeals had misinterpreted
the will of the enacting Congress.” Id. (emphasis in original).
2. Thus, the retroactive operation of judicial decisions, which has been the
rule “for near a thousand years,” see id. at 312, has important separation-of-powers
implications. When courts treat their own erroneous prior interpretations as “the
law,” they are untethered to any actual act of the legitimate lawmaking branch of
government. So much the worse when they, like the courts below Mr. Segura’s own
case, treat the uninformed decisions of low level law enforcement officers as “law.”
3. The Fourth Circuit’s approach goes beyond any previously recognized
principles of agency deference and defers to unreasonable and non-public legal
opinions of low level immigration officials. In this case, the courts below
acknowledged that there was no caselaw answering in particular whether the crime
at issue was an aggravated felony. The immigration officer who charged Mr.
Segura-Virgen with deportability testified that he would have consulted a list of
qualifying convictions (never disclosed) prepared by another ICE “legal office.” The
list was never produced. C.A.J.A. 112.
This Court has countenanced strong deference to reasoned, published, and
binding agency opinions, see Chevron, U.S.A., Inc. v. Natural Resources Defense

-24-

Council, Inc., 467 U.S. 1227 (1984), and weaker deference to informal opinions, see
Skidmore v. Swift & Co., 323 U.S. 134 (1944), where the governing statute is
ambiguous. But it has never extended deference to informal, unreasoned agency
decisions on a matter of law contrary to an unambiguous statute, as the Fourth
Circuit did here – in a criminal case, to boot. Esquivel-Quintana itself considered
and rejected any deference to contrary interpretations of the aggravated felony
provision at issue, holding that the statute “unambiguously forecloses” the BIA’s
interpretation. 137 S.Ct. at 1572. The First and Fourth Circuits’s rule reduces to
this: immigration officers’ determinations on questions of law stand, no matter how
unreasonable, and can be used in a later criminal prosecution, unless binding
precedent at the time contradicts them. This flips the roles of courts and
administrative agencies with no justification.
4. The Fourth Circuit’s approach is unworkable. As this Court has
recognized, administrative concerns can actually be harmed by non-retroactivity.
Henderson v. United States, 568 U.S. 266, 277 (2013) ("[T]he competing 'time of
error' rule . . . works practical administrative harm."). Lopez-Collazo has turned out
to be an administrative nightmare, as this case illustrates. Under
Esquivel-Quintana, this case is easy. A violation of Cal. Penal Code § 261.5(c) is not
an aggravated felony, and it never was. It was error to order Mr. Segura removed
from the country on a charge that he had been convicted of an aggravated felony.
But instead, the Lopez-Collazo approach forces district courts to delve into the mess
of categorical-approach caselaw in 2001 in another circuit, to try to parse what

-25-

particular wrong interpretation of the law may have governed an immigration
officer’s decision.
5. This Court has already adopted the rule Mr. Segura argued for in two
analogous contexts. First, in Sicurella v. United States, 348 U.S. 385 (1955), this
Court considered a collateral attack on an administrative agency order as an
element of a criminal offense – there, a draft board order. It held that the
Department of Justice’s use of an erroneous standard to evaluate a conscientious
objector claim, which this Court construed for the first time in that case, was an
“error of law” that “vitiate[d] the entire proceedings.” Id. at 392.
More recently, this Court has reaffirmed that, even on plain-error review, the
interpretation of law at the time of decision controls. See Henderson, 568 U.S. at
278 (“[P]lain-error review is not a grading system for trial judges.”); compare LopezCollazo, 824 F.3d at 456 (immigration officers need not be “clairvoyant”). The
Fourth Circuit’s focus on the decisionmaker is misplaced; it only matters whether
the defendant’s due process rights were respected, not by whom or how subjectively
diligent they were.
B.

Courts That Hold A Waiver By a Pro Se Alien Is Considered
and Intelligent Despite Lacking or Erroneous Advice on a
Dispositive Issue Are Wrong

The majority of Circuits have departed from Mendoza-Lopez, having either
failed to examine the holding closely, or by misunderstanding it. In Mendoza-Lopez,
the immigration judge gave the respondents a confusing explanation of suspension
of deportation – a discretionary form of relief – and failed to answer a question

-26-

which showed the respondent had not understood the explanation. 481 U.S. at 831,
id. at n.4. This Court held:
The Immigration Judge permitted waivers of the right to
appeal that were not the result of considered judgments
by respondents, and failed to advise respondents properly
of their eligibility to apply for suspension of deportation.
Because the waivers of their rights to appeal were not
considered or intelligent, respondents were deprived of
judicial review of their deportation proceeding. The
Government may not, therefore, rely on those orders as
reliable proof of an element of a criminal offense.
Mendoza-Lopez, 481 U.S. at 840. Thus, whatever else its holding, this Court clearly
held that the failure to properly explain a form of relief for which the respondent is
eligible prevents any subsequent appellate waiver from being “considered and
intelligent.” An alien’s failure to understand a dispositive issue “effectively
eliminates” the opportunity for judicial review of the result. Id. at 839. Therefore it
cannot be truethat an alien who is not notified of, or provided an opportunity to
challenge a dispositive issue can validly waive the right to judicial review.
Courts on the other side of the split invoke different arguments. The First
Circuit explicitly relied on Brady v. United States, 397 U.S. 742, 757 (1970), in
holding that legal advice on an unresolved question of law is not necessary to
render a waiver knowing and intelligent. Soto-Mateo, 799 F.3d at 123. There is
admittedly tension between Mendoza-Lopez and this Court’s opinion in Brady. In
Brady, this Court held that a guilty plea to avoid the death penalty, made with the
advice of counsel, under a sentencing regime later ruled unconstitutional was still
voluntarily and intelligently made. Brady, 397 U.S. at 757. Brady should not

-27-

control, however, for three reasons. First, the availability of competent counsel was
key to the Court’s holding in Brady. Id. Counsel, of course, can inform defendants
and respondents of the legal context, and the notion that one can dispute the
government’s or even courts’ interpretation of the law and sometimes succeed.
Therefore, Mr. Brady knew, presumably, that he had the option of challenging the
constitutionality of the death penalty in his circumstance and chose to forego it. In
contrast, as an alien in civil removal proceedings, Mr. Segura had no right to courtappointed counsel, and was unrepresented. App.10a; C.A.J.A. 89-91.
Second, Brady itself noted that “misrepresentation . . . by state agents” could
still render a plea invalid. Id. In criminal proceedings like Brady, neither the
judge nor the prosecutor advise the defendant. However, in immigration
proceedings with pro se respondents, the immigration judge or service are the only
possible sources of the knowledge necessary to make considered and intelligent
decisions. And Form I-851 used in all administrative removal proceedings does
mislead aliens into believing that there is no option to challenge classification of
their conviction. See Valdivia-Flores, 876 F.3d at 1206 (exclusive list of checkboxes
on Form I-851 lacking option to challenge classification of conviction is misleading
to pro se alien).
Last, Mendoza-Lopez should control. It was decided 17 years after Brady,
and was specific to the context of challenges to the use of prior removal orders
under § 1326.

-28-

V.

This Case is an Ideal Vehicle for Resolving the Questions Presented
This case presents a good vehicle to resolve the circuit splits. The legal

questions are clear-cut, and the opposing views of the Circuits well developed
through decades’ worth of published opinions and dissents on both sides of the
issues.
There are no factual disputes in the record. The forms used in the removal
proceedings are in the record, black and white, and allege as the sole ground of
deportability that Mr. Segura had been convicted of an aggravated felony. The
government presented testimony that the forms were the entirety of the advice
provided to Mr. Segura in removal proceedings, C.A.J.A. 89-91, and Mr. Segura, for
his part, stipulated that he speaks English proficiently. App. 18a.
The legal issues are also appropriately narrow. First, there can be no dispute
that Mr. Segura’s conviction is not, and never was, an aggravated felony in light of
Esquivel-Quintana as the courts below acknowledged. App. 12a. Therefore this
Court need not conduct any further analysis under the categorical approach, and
can directly address the narrower issue of whether precedent at the time of removal
or time of collateral attack should control.
Regarding deprivation of judicial review, most of the Circuits on the Fourth
Circuit’s side of the split – including the Fourth Circuit itself – have acknowledged
in published opinions that aliens in administrative removal proceedings do not have
an opportunity to contest whether their convictions are aggravated felonies. See
Etienne v. Lynch, 813 F.3d 135, 141-42 (4th Cir. 2015) (“In light of the contents of

-29-

Form I-851, we cannot say that DHS’s expedited removal procedures offer an alien
the opportunity to challenge the legal basis of his or her removal.”); ValdiviezHernandez v. Holder, 739 F.3d 184 (5th Cir. 2013) (“The relevant statutes and
corresponding regulations therefore did not provide Valdiviez with an avenue to
challenge the legal conclusion that he does not meet the definition of an alien
subject to expedited removal” due to an aggravated felony conviction.); see also
Victoria-Faustino v. Sessions, 865 F.3d 869, 873 (7th Cir. 2017) (finding jurisdiction
to review aggravated felony classification despite petitioner’s failure to respond to
NOI); Valdivia-Flores, 876 F.3d at 1205-06 (“[T]he Notice of Intent . . . did not
explicitly inform [the defendant] that he could refute, through either an
administrative or judicial procedure, the legal conclusion underlying his
removability. In fact, the Notice of Intent’s three check boxes suggested just the
opposite – that removability could only be contested on factual grounds.”). This
wide agreement that administrative removal proceedings provide no opportunity to
contest the legal question of removability allows this Court to review the narrow
question of whether an alien’s waiver of appeal can be “considered and intelligent”
despite this deficiency.
Therefore, this case presents clear-cut, resolvable, narrow, dispositive issues
of pure law: (1) should courts disregard precedential opinions issued subsequent to
the removal order, and (2) what advice is required to a pro se alien to render his
decision to appeal considered and intelligent?

-30-

The opinion was unpublished; however, that should not be a reason to deny
certiorari in this case. The issue presented was thoroughly litigated in both the
district court and the Fourth Circuit. The district court issued a written and
exhaustive memorandum opinion. App. 9a-17a. The Fourth Circuit reviewed the
issue de novo and issued a 9-page reasoned opinion. As some Justices have noticed,
the Fourth Circuit declines to publish decisions that satisfy its own criteria for
publication. See Plumley v. Austin, 135 S. Ct. 828, 831 (2015) (Thomas, J., and
Scalia, J., dissenting from denial of certiorari). This case satisfies at least three of
those criteria; it “establishes . . a rule of law within [the] Circuit;” it “involves a
legal issue of continuing public interest;” and it “creates a conflict with a decision in
another circuit.” Fourth Circuit Local Rule 36(a)(i), (ii), (v). The Fourth Circuit is
unlikely to change its position; since Lopez-Collazo, it denied a petition for
rehearing in this case, and has rejected a materially identical claim in another case.
See United States v. Gonzalez-Ferretiz, F. App’x. 837 (4th Cir. 2020) (petition for
certiorari filed October 13, 2020, No. __-____). These issues are fully ready for this
Court to review, and this case presents a suitable opportunity to do so.

-31-

CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
GEREMY C. KAMENS
Federal Public Defender

Counsel of Record
Assistant Federal Public Defender
Office of the Federal Public Defender
for the Eastern District of Virginia
701 East Broad Street
Suite 3600
Richmond, VA 23219
(804) 565-0830
Joseph_Camden@fd.org

October 14, 2020

-32-

